   August 2, 2004




Acquisition
Contract No. N00024-02-C-6165 for
Consulting Services at the Naval
Shipbuilding, Conversion, and Repair
Facility
(D-2004-103)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DB&A                  DeWolff, Boberg, and Associates
FAR                   Federal Acquisition Regulation
NAVSEA                Naval Sea Systems Command
PEO                   Program Executive Office
SUPSHIP               Supervisor of Shipbuilding, Conversion, and Repair
          Office of the Inspector General of the Department of Defense
Report No. D-2004-103                                                      August 2, 2004
   (Project No. D2004CF-0031)

      Contract No. N00024-02-C-6165 for Consulting Services at the
          Naval Shipbuilding, Conversion, and Repair Facility

                                 Executive Summary

Who Should Read This Report and Why? DoD organizations that are considering the
award of a consulting services contract to improve employee efficiency and productivity
should read this report in order to ensure applicable contracting rules are followed and to
help preclude negative reaction from the workforce.

Background. The Naval Sea Systems Command awarded contract N00024-02-C-6165
to DeWolff, Boberg, and Associates on May 22, 2002, for an initial award amount of
$1,309,000. The current value of the contract, after nine modifications, is $22,181,200.
The Naval Sea Systems Command issued and administered modifications to this contract
to conduct efficiency management and productivity improvement consulting services at
the Supervisor of Shipbuilding, Conversion, and Repair Facility, Newport News,
Virginia. The statement of work for this effort required the contractor to identify and
analyze the causes of organizational and operational issues that were restricting the
Newport News repair facility from achieving better productivity at an accelerated pace.
During October 2003, Representative Jo Ann Davis and Senator George Allen requested
that we review the concerns of a constituent. The complainant questioned how the
contractor was uniquely qualified to justify a sole-source procurement, why the initial
appropriated funding for this contract was changed, why the contractor was paid a
generous contract price, and why the negative impact caused by contractor performance
was not addressed. The complainant also alleged non-responsiveness by the Naval Sea
Systems Command Inspector General and possible unnecessary access to proprietary data
by the contractor.

In January 2004, we received a separate complaint involving the same contract. The
complaint was provided by the Defense Hotline and addressed the justification of unusual
and compelling urgency for a sole-source contract. In addition, the complainant alleged
that the contractor failed to remit taxes and secure appropriate business licenses with the
Commonwealth of Virginia and municipal authorities. Overall, the complainant(s) raised
10 allegations (7 in the Congressional Request and 3 in the Defense Hotline complaint)
addressing the contract for efficiency management and productivity improvement
consulting services.

Results. Regarding contract N00024-02-C-6165, the Naval Sea Systems Command did
not execute effective contract planning and administration procedures outlined in the
Federal Acquisition Regulations. Two of the 10 allegations questioned the Naval Sea
Systems Command justification for awarding a sole-source contract citing only one
responsible source and unusual and compelling urgency. These two allegations were
substantiated in that the Navy did not meet the Federal Acquisition Regulations criteria to
justify awarding a sole-source contract for consulting services citing that an urgent
requirement and only one responsible source existed. Advance planning would have
eliminated the necessity for urgency. Furthermore, other potential firms were available
to compete for the contract requirement. As a result, any financial benefits that could be
achieved through competition were unattainable.

Because of the overall inappropriate contract planning and administration procedures
employed with contract N00024-02-C-6165, the Commander, Naval Sea Systems
Command should terminate all activity on this contract at the conclusion of work at the
Newport News repair facility and compete subsequent contract requirements for
consulting services. In addition, the Commander, Naval Sea Systems Command should
issue written guidance to its contracting activities addressing the proper preparation of a
justification and approval for other than full-and-open competition when contemplating
the issuance of sole-source contracts and ensure that changes in contract scope generate
new contracts.

For the remaining eight allegations, we found that five allegations questioning contract
funding, the contract price, time expenditures and travel expenses, contractor
performance, and the possible unnecessary access to proprietary data by the contractor
were unsubstantiated. We substantiated two allegations questioning the contractor’s
business liabilities and state registration requirements. The contractor was taking steps to
rectify these areas. We could not assess the legitimacy of the remaining allegation
regarding nonresponsiveness by the Naval Sea Systems Command Inspector General
based on the absence of facts and supporting data. However, we referred this allegation
to the Deputy Inspector General for Inspections and Policy for further review. See the
Finding section and the Congressional and Defense Hotline section of the report
(Appendix C) for a discussion of the specific issues raised by the complainant(s).

Management Comments and Audit Response. The Director, Program Analysis and
Business Transformation Office of the Assistant Secretary of the Navy for Research,
Development, and Acquisition agreed not to place new work on contract N00024-02-C-
6165 upon the conclusion of work at the Newport News repair facility and agreed to
compete future consulting work at other repair facilities. The Director agreed in principle
that written guidance was necessary to address the preparation of a “Justification and
Approval for Other than Full-and-Open Competition” document, but stated that adequate
guidance currently exists and was properly implemented. The Director agreed to conduct
refresher training that would highlight key points in justification and approval
preparation. The Director did not agree that written guidance addressing changes in
contract scope was necessary, and maintained that no requirement exists that a change in
contract scope would require a new contract. We do not agree that a contracting officer’s
discretion is paramount in decisions involving contract scope changes and that written
guidance addressing contract scope changes is still required. We request that the Director
provide comments on the final report by October 1, 2004. See the Finding section of the
report and Appendix E for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  2

Finding
     Contracting for Consulting Services                                    3

Appendixes
     A. Scope and Methodology                                               14
     B. Congressional Requests                                              16
     C. Responses to Allegations Raised in the Congressional Requests and
          the Defense Hotline Complaint                                     18
     D. Chronology of Events for Contract N00024-02-C-6165                  25
     E. Navy Comments on the Report Finding and Audit Response              27
     F. Report Distribution                                                 30

Management Comments
     Department of the Navy                                                 33
Background
    Congressional Request. On October 28 and 31, 2003, Representative Jo Ann
    Davis and Senator George Allen requested that the Inspector General of the
    Department of Defense review the concerns of a constituent (see Appendix B for
    copies of the requests). The identical, anonymous complaints were submitted by
    the complainant to the representative and senator and alleged contract award and
    contractor performance improprieties involving a contract with DeWolff, Boberg,
    and Associates (DB&A) for consulting services conducted at the Supervisor of
    Shipbuilding, Conversion, and Repair (SUPSHIP) Facility Newport News,
    Virginia. Specifically, the complainant questioned how DB&A was uniquely
    qualified as to justify a sole-source procurement, why the initial funding for this
    contract was changed from shipbuilding and conversion funding to operation and
    maintenance funding, why the contractor was paid an overly generous contract
    price of $7,000 per week per contractor employee, and why the negative impact
    of productivity and morale caused by the performance of the contractor was not
    addressed. The complainant further alleged nonresponsiveness by the Naval Sea
    Systems Command (NAVSEA) Inspector General and possible unnecessary
    access to proprietary data by DB&A. See Appendix C for a discussion of the
    specific issues raised.

    Defense Hotline. On January 20, 2004, the Defense Hotline received a complaint
    involving a consulting services contract with DB&A at SUPSHIP, Newport
    News. The complaint addressed the justification of unusual and compelling
    urgency for a sole-source contract. In addition, the complainant alleged that
    DB&A “has continued to be defiant” with regard to remitting taxes and securing
    appropriate business licenses with the Commonwealth of Virginia and municipal
    authorities. See Appendix C for a discussion of the specific issues raised.

    Consulting Services Contract. NAVSEA awarded contract
    N00024-02-C-6165 to DB&A on May 22, 2002, for an initial amount of
    $1,309,000. The contract was a firm-fixed-price contract and was issued for
    efficiency management and productivity improvement consulting services. The
    original contract directed that consulting services be conducted at NAVSEA
    headquarters activities. As of February 2004, the contract had been modified nine
    times. The modifications represented administrative changes and increases in
    funding for the initial award, different functional areas, and different locations.
    Modification P00007, signed on August 15, 2003, for $4,284,400, contracted for a
    30-week efficiency study to upgrade the management operating system and
    culture at SUPSHIP, Newport News. Modification P00008, signed on
    September 4, 2003, added an additional 18 weeks and $2,570,400 for consulting
    services at the Newport News repair facility.

    The statement of work required DB&A to identify and analyze the causes of
    organizational and operational issues that were restricting the repair facility from
    achieving better productivity at an accelerated pace. In addition, the contractor
    was tasked to provide a better understanding of SUPSHIP, Newport News, and
    identify the true capacity of resources from processes to personnel. A chronology
    of events for contract N00024-02-C-6165 is contained in Appendix D.



                                         1
Objectives
    The audit objective was to examine whether the Navy executed effective contract
    planning and administration procedures. Specifically, we examined the type of
    contract used, funding and pricing issues, and evaluated the performance of the
    contractor. See Appendix A for a discussion of the audit scope and methodology.




                                       2
            Contracting for Consulting Services
            Naval Sea Systems Command contracting officials did not meet Federal
            Acquisition Regulation criteria when they cited unusual and compelling
            urgency and only one responsible source to justify awarding a sole-source
            contract for consulting services to DeWolff, Boberg, and Associates. An
            urgent requirement did not exist and other potential firms were available
            to compete the contract requirement. Specifically, contracting officials
            did not:

                   •   properly conduct acquisition planning,

                   •   attempt to obtain competition for the original contract and its
                       nine subsequent modifications,

                   •   award modifications within the original scope of work, and

                   •   adequately document contract decisions and rationales.

            As a result, any financial benefits that could be achieved through
            competition were unattainable.


Budget Reduction Notification
     On September 4, 2001, a joint memorandum from the Vice Chief of Naval
     Operations and the Assistant Secretary of the Navy for Research, Development,
     and Acquisition directed the Navy to find reductions in program costs, for
     contracted services, and staffing levels at System Commands and Program
     Executive Offices. According to the Deputy Executive Director of Corporate
     Operations at NAVSEA, this memorandum served as a catalyst for future directed
     reductions in contractor support services and civilian personnel accounts. In
     February 2002, a resource allocation display of the FY 2004 budget called for an
     8 percent civilian personnel reduction that equated to a 20 percent reduction in
     civilian personnel end strength at NAVSEA and Program Executive Offices. In
     May 2002, the Chief of Naval Operations directed that NAVSEA “reduce
     overhead by 10 percent [and] return savings to fleet readiness and procurement
     accounts.”

     According to the Deputy Executive Director, NAVSEA needed to quickly
     determine how to absorb the budget reductions in both contractor support services
     and civilian personnel accounts without sacrificing its product and quality of
     service, while concurrently absorbing increases in future workload. Although it is
     unclear when this budget reduction decision was made, NAVSEA decided to
     examine its organization to determine how to make it more productive and
     efficient.




                                         3
Criteria
     The Federal Acquisition Regulation (FAR) 6.302-2, “Unusual and Compelling
     Urgency,” states that when the need for supplies or services is of such an unusual
     and compelling urgency that the Government would be seriously injured unless
     the agency is permitted to limit the number of sources from which it solicits bids
     or proposals, full-and-open competition need not be provided for. The authority
     of unusual and compelling urgency applies in the situation where a delay in award
     of a contract would result in serious injury, financial or other, to the Government.
     Contracts awarded using the authority of unusual and compelling urgency shall be
     supported by written justification and approvals and require that agencies request
     offers from as many potential sources as is practicable under the circumstances.
     The Defense Federal Acquisition Regulation Supplement 206.302-2(b), “Unusual
     and Compelling Urgency,” elaborates by stating that the use of this authority may
     be appropriate when supplies, services, or construction are needed at once
     because of fire, flood, explosion, or other disaster.

     FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
     Will Satisfy Agency Requirements,” states that full-and-open competition need
     not be provided for when it is demonstrated that no other supplies or services will
     satisfy agency requirements or when the contractor displays a unique and
     innovative concept to fulfill the contract requirements.


Acquisition Planning
     Unusual and Compelling Urgency. FAR 6.301(c)(1), “Policy,” states that
     contracting without providing for full-and-open competition shall not be justified
     on the basis of a lack of advance planning by the requiring activity. NAVSEA
     received notification as early as September 2001 regarding future reductions in
     the FY 2004 budget. We found no evidence that NAVSEA contracting officials
     took action to start planning a contract for efficiency management and
     productivity improvement consulting services, as prescribed in FAR 6.301(c)(1).
     NAVSEA stated in the original justification and approval document, signed May
     10, 2002, that “efforts have been made to reduce expenditures, however efforts up
     to this point have not yielded the savings required . . . .” After further
     questioning, NAVSEA contracting officials confirmed that these efforts were not
     related to a consulting services contract.

     To meet contractor support service reductions in FY 2000 and beyond, NAVSEA
     stated that it established a contract efficiencies working group, which allowed a
     thorough requirements review to justify each amount and level of service, and
     looked at process improvements in their buying habits. To meet civilian
     personnel reductions in FYs 2003 and 2004, NAVSEA implemented strict no
     hiring policies and offered two voluntary separation incentive pay/voluntary early
     retirement authority opportunities. In March 2002, NAVSEA introduced the
     NAVSEA Placement Program, which still exists today. According to the Deputy
     Executive Director of Corporate Operations, this process was the key to reducing
     NAVSEA staff to the FY 2004 budget requirements. We raised the question as to


                                          4
why NAVSEA needed to contract with DB&A for consulting services if the
NAVSEA Placement Program was, indeed, the key to reducing NAVSEA
staffing. According to the Deputy Executive Director, the NAVSEA Placement
Program was an effective approach to downsize without any adverse actions on
the workforce. He stated that, “The DB&A effort, on the other hand, was
completely about efficiency and productivity improvements and nothing about
downsizing. The DB&A effort was solely applied to find more efficient methods
to perform our mission and increase our productivity.” Yet, NAVSEA
contracting officials used the FY 2004 budget reductions as the justification to
award a sole-source contract to DB&A, citing unusual and compelling urgency.

NAVSEA contracting officials did not take action in September 2001 to start
planning a contract for efficiency management and productivity improvement
consulting services. However, the contracting officials later contended that the
requirement was considered urgent in May 2002. According to NAVSEA
contracting officials, the Program Executive Office (PEO), Carriers (a primary
customer of SUPSHIP, Newport News) recommended DB&A because it had
prior involvement with the contractor on a similar scope award. The
$1,309,000 contract was awarded to DB&A on a sole-source basis citing unusual
and compelling urgency. DB&A was also awarded four modifications (P00001
through P00004) dated June 3 through August 30, 2002, using the same
justification and approval document. These modifications added funding, restated
line items, performed an administrative change, and executed a portion of the
option periods against the original contract.

Only One Responsible Source. The NAVSEA contracting office determined
that modifications (P00005 through P00009) to contract N00024-02-C-6165
would be awarded on a sole-source basis before synopsizing the modifications,
later citing only one responsible source. We reviewed three synopses that the
NAVSEA contracting officials prepared before issuing modifications that
“. . . added new work and scope” to the original contract. Each synopsis stated,
“The Naval Sea Systems Command (NAVSEA) intends to negotiate with and
issue a sole-source modification to Dewolff, Boberg, and Associates . . . .”
However, the contracting officials explained that they decided to award the
modifications on a sole-source basis after posting the synopses on the Federal
Business Opportunities Web site and no other contractors expressed an interest to
bid on the modifications.

Although NAVSEA appropriately stated in the synopsis that it intended to award
a sole-source modification to DB&A, we interpreted the original determination to
award the modifications on a sole-source basis to be inappropriate. The
contracting office should not have predisposed this requirement for consulting
services using the sole-source criteria. If the NAVSEA contracting office truly
intended to compete contract N00024-02-C-6165, then the synopses would not
have been prepared to award a sole-source modification to the contract.




                                    5
Competition Requirements

Unusual and Compelling Urgency
     The justification of unusual and compelling urgency does not eliminate the need
     to review other sources to fill the contract requirement. FAR 6.302-2(c)(2),
     “Unusual and Compelling Urgency – Limitations,” requires that agencies request
     offers from as many potential sources as is practicable under the circumstances.
     The May 10, 2002, justification and approval document stated that a formal
     market survey was not conducted because it was not practicable to establish
     further competition because DB&A was free of any conflict of interests relating
     to the nature of the services. However, the original business clearance
     memorandum, dated May 17, 2002, provided a review of contractors that perform
     similar services, which were available on various General Services
     Administration schedules, in order to show price reasonableness. Because the
     contract was not awarded until May 22, 2002, we question why NAVSEA did not
     conduct any market research when they learned there were other firms capable of
     performing the required work. We searched the General Services Administration
     Advantage! Web site in April 2004 and documented that 1,379 contractors could
     have performed consulting services for DoD. NAVSEA did not comply with
     FAR 6.302-2 because it failed to request offers from potential sources.

Only One Responsible Source
     Synopsis. FAR 5.207, “Preparation and Transmittal of Synopses,” requires that a
     noncompetitive contract action synopsis should include, among other things, the
     intended source, a statement of the reasons justifying the lack of competition, and
     a statement that all responsible sources may submit a bid.

     Each synopsis stated that NAVSEA intended to issue a sole-source modification,
     which we contend may have deterred potential competitors. NAVSEA contended
     that language citing a sole-source contract modification is a customary practice.
     However, the examples that the contracting office provided incorporating this
     language typically were used for procuring specialized equipment from large
     defense contractors. Smaller firms may have the ability to fulfill the requirement
     for an efficiency study; however, they may not have submitted a bid because they
     were unaware that a sole-source synopsis may be competed. NAVSEA similarly
     inserted the following statement in the three synopses:
                DBA has already begun the Command-wide study and as such holds
                significant knowledge of NAVSEA and affiliated Program Executive
                Office (PEO) procedures, contracts, policies, and organization. The
                scope of work requires that the contractor evaluate NAVSEA
                processes, program management functions and duties, and government
                and contractor manpower needs. As such, it is a requirement that the
                contractor be free from all potential conflict of interests, cannot be
                currently performing any other NAVSEA contract, and will be
                prevented from being awarded any future NAVSEA business. DBA is
                in a unique position of never having held a NAVSEA contract, other



                                             6
           than the current Command-wide Efficiency Management and
           Productivity Improvement Consulting Services contract and is
           excluded from performing any different type of future effort for
           NAVSEA.

According to that statement, the lack of competition was necessary due to the
significant knowledge the contractor had of NAVSEA. If this were the case, this
logic would apply to every follow-on contract, always rendering competition a
moot concern.

As stated above, each synopsis stated that “. . . it is a requirement that the
contractor be free from all potential conflict of interests, cannot be currently
performing any other NAVSEA contract, and will be prevented from being
awarded any future NAVSEA business. . . .” The legal counsel and Executive
Director for Contracts, NAVSEA approved the use of this requirement in the
contract. The contracting office explained that the contractor could perform
efficiency studies for NAVSEA, but not dissimilar contracting work that would
be enhanced from the knowledge acquired through the efficiency study. The
contracting office stated that:
           The contract contains a clause, which prohibits them [the contractor]
           from performing any other type of work for NAVSEA. For example,
           they would not be able to do program management or logistics work
           for us, but could hold another contract for other efficiency management
           efforts. . . . This effort required the contractor to analyze and provide
           recommendations about the level of contractor support services of the
           command. It would be a conflict of interest and inappropriate for any
           company, to on one hand have access to information describing the
           level of effort required to satisfy contracted out requirements and
           recommend to us to cut or keep a specific level of service, while on the
           other hand proposing on those same requirements. At the very least,
           this represents an unfair competitive advantage. . . . If this requirement
           were not in the contract, there would be nothing to prohibit them from
           suggesting that we eliminate their competitor’s contracts and keeping
           theirs.

However, the synopsis does not explain that the contractor would be able to
perform additional consulting services-type efforts. Another contractor,
specializing in consulting services, could have submitted an offer and could have
been awarded additional NAVSEA consulting services contracts. However,
without directly questioning the NAVSEA contracting office, a contractor would
not have known it would not have been restricted from future consulting services
contracts.

Contract Modifications. The NAVSEA contracting office prepared three
synopses each time they “. . . added new work or scope” and posted them on the
Federal Business Opportunities Web site. NAVSEA awarded multimillion-dollar
modifications without conducting sufficient market research. Because DB&A
would have been disqualified, according to the stated synopsis requirement
cannot be performing any other NAVSEA contract, the command may also have
awarded modifications instead of awarding new contracts for four modifications



                                          7
(P00006, P00007, P00008, and P00009). To avoid this potential conflict,
NAVSEA awarded a modification to the contract while changing the scope of the
award.

        Modification P00005. The first synopsis was entered into the Federal
Business Opportunities Web site on June 28, 2002, and addressed the
September 30, 2002, modification P00005, valued at $10,963,400. The
contracting office explained that it learned of this requirement in June 2002.
NAVSEA had approximately 3 months to solicit potential consulting services
firms and conduct sufficient market research. The contracting office stated,
“. . . We synopsized P00005 a good amount of time before the mod, because we
knew it was coming.” The contracting office relied solely on the Federal
Business Opportunities Web site for interested contractors to contact NAVSEA.
When no other contractors expressed an interest to fulfill the requirement of
P00005, NAVSEA issued a justification and approval for other than full-and-open
competition, citing only one responsible source. However, because the
contracting office was aware of the impending requirement, it should have
conducted appropriate competition procedures to encourage competition from
other contractors.

We searched the General Services Administration Web site for consulting
services firms that currently have a consulting services schedule. We determined
that 1,379 contractors existed that could have possibly fulfilled the requirement.

        Modification P00006. The second synopsis was placed on the Federal
Business Opportunities Web site on January 16, 2003, and addressed the
January 31, 2003, modification P00006. The contracting office explained that the
requirement was generated during January 2003. This modification changed a
portion of the location of the contract to Yorktown, Virginia. The major taskings
in the statement of work for P00006 were similar to the taskings in the statement
of work for the original contract. The major difference was including an
additional line item changing the location of the contract. The new location was
not within the scope of the original contract and including this requirement within
this contract did not allow for proper competition. The contracting office should
have excluded this modification requirement from this contract and awarded a
new contract.
       Modifications P00007, P00008, and P00009. The third synopsis was
placed with the Federal Business Opportunities Web site on July 18, 2003, and
addressed the August 15, 2003, modification P00007; September 4, 2003,
modification P00008; and September 25, 2003, modification P00009.

               Modifications P00007 and P00008. The Deputy, PEO, Carriers
       explained that a proper management operating system was not
       implemented at SUPSHIP, Newport News to ensure that ship overhaul and
       repair was conducted within time and budget constraints. Furthermore,
       NAVSEA was dissatisfied with the quality and timeliness of the
       SUPSHIP, Newport News workload. Therefore, the Deputy PEO
       requested that DB&A review the management operating system to
       enhance productivity. The Deputy PEO was familiar with DB&A and
       knew that NAVSEA currently held a contract with the company.


                                     8
       DB&A conducted an analysis at SUPSHIP, Newport News to determine
       whether it would be able to implement a new management operating
       system. The PEO, Carriers funded the DB&A survey that was conducted
       from October 28, 2002, through November 8, 2002. DB&A estimated a
       savings of $23,795,540 through a reduction of Government billets and
       from increased contractor and Government productivity. DB&A also
       stated it could improve service and quality measures at SUPSHIP,
       Newport News.

       Although the DB&A survey was conducted from October 28, 2002,
       through November 8, 2002, the modification implementing the SUPSHIP,
       Newport News effort was not effective until August 15, 2003. The
       Deputy, PEO, Carriers explained that the 9-month delay resulted from the
       large workload at SUPSHIP, Newport News. The Deputy, PEO, Carriers
       and the Deputy Commander, SUPSHIP, Newport News, decided when to
       implement the effort at the repair facility based on the most suitable time
       for the Newport News staff. However, the NAVSEA contracting office
       learned of the Newport News requirement in July 2003. In turn, PEO,
       Carriers did not appropriately inform the NAVSEA contracting office of
       the intended requirement. If PEO, Carriers notified NAVSEA in
       November 2002 of the potential requirement, NAVSEA could have
       competed the requirement.

               Modification P00009. The contracting office explained that it did
       not synopsize P00009 because NAVSEA determined it to be within the
       same scope of work as P00007 and P00008. Furthermore, NAVSEA
       contended that the synopsis for P00007 and P00008 was “. . . sufficiently
       large enough (in terms of hours and estimated cost)” to include the work
       performed for P00009. However, P00007 and P00008 involved
       conducting, developing, and implementing specific tasks at SUPSHIP,
       Newport News while P00009 involved an analysis of current and future
       capabilities at SUPSHIP, Groton, Connecticut and SUPSHIP, Bath,
       Maine. The contracting office modified the statement of work to include
       the aforementioned analysis that was not originally included in any
       previous version of the statement of work.
The requirements for the SUPSHIP, Yorktown; SUPSHIP, Newport News;
SUPSHIP, Groton; and SUPSHIP, Bath efforts were not included in the statement
of work for the original contract. We believe that NAVSEA included this
requirement as a modification to the original award in order not to violate the
synopsis requirement that the contractor cannot be currently performing any other
NAVSEA contract.

Furthermore, the justification and approval documents explain that market
research was not conducted on any modification because “. . . it was not
practicable to establish further competition . . .” due to the nature of the
requirements. However, we contend that this is an important factor for utilizing
the only one responsible source justification. Through market research, the
assumption regarding the unique qualifications of the contractor would have been
unveiled. If NAVSEA appropriately planned this contract within the early stages
of the acquisition process, it could have initially synopsized this contract one time


                                      9
    stating a possible value of $22 million with consulting services work performed at
    various locations. Potential contractors may then have been more inclined to
    compete for the requirement.


Contract Documentation
    Justification and Approval for Other Than Full-and-Open Competition.
    FAR 6.303-2(a), “Justifications – Content,” states that when an agency uses
    noncompetitive procedures to award a contract, it is required to execute a written
    justification and approval with sufficient facts and rationale to support the use of
    the specific authority cited. The most critical aspect of the justification of unusual
    and compelling urgency is quantifying the nature of the urgency. If any delay
    will place financial obligations on the Government, these costs must be estimated
    and the basis of the estimate explained in the justification. According to a DoD
    “Lessons Learned” from case law on urgency-based sole-sourced actions,
    November 20, 2002, all acquisition workforce personnel involved in preparing
    and certifying justification and approvals should understand the goods or services
    being acquired and ensure that recent market research has been performed and
    that thorough and complete justifications for sole-source actions were prepared in
    order to ensure that any protests received could be effectively refuted. As stated
    in a November 2001 article in Washington Technology, “Streamlining
    Procurements: Unusual and Compelling Urgency,” it is critical that the agency
    fully explain and justify its decision in the justification and approval document.

    The May 10, 2002, justification and approval document, citing unusual and
    compelling urgency for the DB&A contract, was neither specific nor did it appear
    to justify the seriousness anticipated by the law and implementing regulations.
    The justification and approval included only the minimum information required
    by the FAR. The justification and approval offered no rationale for certifying the
    extent of harm to the Government, thus did not justify the use of the authority of
    unusual and compelling urgency.
    The justification and approval documents citing only one responsible source were
    also neither specific nor did the justifications appear to be justified by the law and
    implementing regulations. The justification documents stated that DB&A:
               . . . is solely qualified as it is currently in the process of performing this
               effort for NAVSEA. Since the goal of this effort is to provide
               recommendations to allow NAVSEA to eliminate duplicative
               engineering services and support, the cost and time delays associated
               with qualifying a new source would significantly put the success of this
               effort in jeopardy. . . . DBA is uniquely qualified for this requirement
               insofar as they are free of any conflict of interests relating to the nature
               of the service . . . .

    However, the explanation does not thoroughly explain the uniqueness of DB&A
    or why other consulting services contractors were not considered for the award.
    Furthermore, if the justification was based on reduction of duplication of costs or
    unacceptable delays to fulfill the requirements, then the document should quantify


                                               10
    the costs in terms of either time or money and provide the basis for these
    estimates. However, we did not find evidence of this information on any
    justification and approval citing only one responsible source.

    Statement of Work. The statement of work for the consulting services contract
    did not explicitly address the actual intention of the contract. NAVSEA
    contended that the urgent need for the consulting services contract was to reach
    the FY 2004 budget reductions. Yet, the 3-page statement of work only alluded
    to that reason twice. It stated that the contractor would “identify the true capacity
    levels of resources” and the outlined approach shall have the critical success
    factor of “methods of determining resource requirements.” The seriousness of the
    justification of unusual and compelling urgency was not detailed in this statement
    of work, nor was the true required expectation of this contract articulated.

    Modification. FAR Subpart 4.8, “Government Contract Files,” requires that the
    contract folder contain documentation supporting the corresponding
    modifications issued by that contracting office and complete background as a
    basis for informed decisions at each step in the acquisition process. However, the
    documentation concerning P00005 did not definitively explain why the firm-
    fixed-price contract was modified for $10,963,400. The statement of work
    attached to this modification added, “Other ship designs and
    organizations . . . whose major functional process is designated as
    engineering . . . .” The contracting office explained that this modification added
    organizational divisions to the engineering department that were not previously
    reviewed by DB&A. We questioned the contracting office about the specific
    areas that were added to the modification. The contracting official explained that
    DB&A reviewed an additional 12 divisions, or approximately 620 people, within
    engineering for P00005. Furthermore, “. . . they [DB&A] weren’t just looking at
    people but a management system, processes, and efficiency.”


Conclusion
    NAVSEA inappropriately awarded a sole-source contract and modifications to
    DB&A, citing unusual and compelling urgency and only one responsible source,
    for efficiency management and productivity improvement consulting services.
    The contracting officials did not plan in advance for this contract requirement,
    despite early notification of FY 2004 budget reductions. The original award and
    the nine contract modifications were not competed, despite evidence of other
    contractors who could perform the work. Furthermore, the contract file
    documentation was insufficient. As a result, any financial benefits that could be
    achieved through competition were unattainable.




                                         11
Management Comments on the Finding and Audit Response
    The Director, Program Analysis and Business Transformation Office of the
    Assistant Secretary of the Navy for Research, Development, and Acquisition
    provided comments on the finding section of this report. See Appendix E for a
    summary of Navy comments on the report finding and our response to those
    comments. See the Management Comments section of this report for the full text
    of Navy comments.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Naval Sea Systems Command:

           1. Terminate all activity on contract N00024-02-C-6165 after the
    conclusion of work at the Supervisor of Shipbuilding, Conversion, and
    Repair Facility, Newport News, Virginia.

    Management Comments. The Navy concurred and stated that NAVSEA had
    already decided in October 2003 that no further services would be procured under
    contract N00024-02-C-6165. Further requirements for consulting services would
    be competitively acquired.

    Audit Response. Although the Navy stated that, as of July 2004, no
    modifications had been added to contract N00024-02-C-6165 after October 28,
    2003, the contract remains open and we have no assurance that additional
    modifications will not be added. During the audit, we were informed that
    subsequent consulting services were contemplated by NAVSEA at repair
    facilities located in Bath, Maine, and Groton, Connecticut, and contract N00024-
    02-C-6165 could have been modified to incorporate those additional locations.
    However, the action taken by the Navy not to award new work on contract
    N00024-02-C-6165 satisfies the intent of the recommendation.

           2. Compete subsequent contract requirements for consulting services
    that are tentatively planned for other Supervisors of Shipbuilding activities.

    Management Comments. The Navy concurred. On March 15, 2004, NAVSEA
    issued a competitive solicitation for additional consulting services. On June 1,
    2004, a new contract was competitively awarded.

          3. Issue written guidance to Naval Sea Systems Command
    contracting office personnel for:
                  a. Preparing a detailed and complete “Justification and
    Approval for Other Than Full-and-Open Competition” when contemplating
    the issuance of a sole-source contract.




                                       12
Management Comments. The Navy concurred in principle, but stated that
adequate guidance for the justification and approval preparation already existed
and was available. However, the Navy agreed to conduct refresher training that
would highlight key points in the justification and approval preparation. The
Navy stated that it properly executed contract N00024-02-C-6165, using the
exception to competition for unusual and compelling urgency. The Navy also
stated that it properly executed modifications to contract N00024-02-C-6165,
citing the appropriate authority in the FAR.

Audit Response. The proposed action to provide refresher training for the
preparation of future justification and approval documents satisfies the intent of
the recommendation. However, we do not agree that the Navy properly executed
contract N00024-02-C-6165 using the unusual and compelling urgency exception
to competition.

              b. Ensuring that changes in contract scope will result in the
need for a new contract.

Management Comments. The Navy nonconcurred and stated that no
requirement exists to mandate that a new contract be awarded based on a change
in scope. The Navy contended that the discretion of contracting officials is
sufficient to determine whether a new contract or a modification to an existing
contract is appropriate.

Audit Response. The Navy comments are nonresponsive. Contracting officials’
discretion is limited to the scope of work under contract, and they do not have the
discretion to unreasonably expand the scope of work via modifications. The
initial value of contract N00024-02-C-6165 was $1.3 million. The contract was
modified nine times, bringing its value to more than $22 million. The
modifications covered over $20 million in cost increases that added work at five
different physical locations. We consider those changes in scope to be material,
and the Navy should have considered awarding a new contract. Had the initial
synopsis included an estimated total value of $22 million, with work at multiple
locations, potentially capable offerors may have been more inclined to submit
bids on the synopsis, thus promoting full-and-open competition. We request that
the Navy provide additional comments on Recommendation 3.b.




                                    13
Appendix A. Scope and Methodology
   We reviewed the allegations raised in congressional requests submitted by
   Representative Jo Ann Davis and Senator George Allen on behalf of a constituent
   claiming contract award and contractor performance improprieties involving
   contract N00024-02-C-6165 with DB&A for consulting services, with
   modifications conducted at SUPSHIP, Newport News. The complainant listed
   “pertinent information” statements and questions in the congressional request that
   addressed the DB&A effort at SUPSHIP, Newport News. The audit team then
   reviewed this information and packaged the alleged statements into five separate
   categories.

   During the course of this review, we also received a Defense Hotline complaint
   that addressed the justification of unusual and compelling urgency for a sole-
   source contract and alleged that DB&A failed to remit taxes and secure
   appropriate business licenses with the Commonwealth of Virginia and municipal
   authorities. Although we received the Defense Hotline complaint subsequent to
   the commencement of this audit, we addressed the issues raised in the Defense
   Hotline complaint in this report.

   We visited and interviewed program and contract personnel at NAVSEA; the
   NAVSEA Comptroller; the Inspector General, NAVSEA; command and
   management personnel at the PEO, Carriers and at SUPSHIP, Newport News; and
   DB&A employees. We obtained pertinent documents and discussed issues raised
   in the congressional requests and the Defense Hotline complaint. We also
   addressed NAVSEA contract planning and administration procedures and
   contractor performance.

   We analyzed contract N00024-02-C-6165 and related modifications, valued at
   $22,181,200, of which $6,854,400 was expended for consulting services at
   SUPSHIP, Newport News. We further analyzed documents including the
   contract and modification statements of work, justifications and approvals for
   other than full-and-open competition, business clearance memorandums, pertinent
   contract clauses, General Services Administration contract pricing data, and
   commercial, non-Government DB&A contract documentation. In addition, we
   reviewed applicable sections of the FAR, the Joint Travel Regulations, the
   National Defense Appropriation Act for FY 2004, and portions of the Code of
   Virginia. We analyzed DB&A contract deliverables addressing SUPSHIP,
   Newport News performance as of January 2004 and invoices submitted for the
   SUPSHIP, Newport News effort. We obtained documentation supporting all
   nondisclosure agreements signed by DB&A employees. Finally, we verified
   grievances filed by the National Association of Government Employees union
   addressing unfair labor practices of the DB&A consulting services contract. The
   audit did not review this area of concern because the union was going through its
   own administrative procedures.




                                       14
We performed this audit from December 2003 through May 2004 in accordance
with generally accepted government auditing standards. Our scope was limited in
that we did not review the NAVSEA management control program because it was
not an announced objective.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of Defense Contract Management. Specifically, it addresses
improving processes and controls to reduce contract risk when awarding contracts
for consulting services.




                                   15
Appendix B. Congressional Requests




                     16
17
Appendix C. Responses to Allegations Raised in
            the Congressional Requests and the
            Defense Hotline Complaint

Sole-Source Procurement – Only One Responsible Source
    Allegation 1. The complainant questioned the legality of a sole-source
    procurement, citing only one responsible source, for the DB&A award.
    Specifically, the complainant questioned how DoD procurement officials could
    “legally justify a sole-source procurement when literally dozens of companies
    within the United States provide this same type of [consulting] professional
    service.” The complainant further questioned the unique qualifications of DB&A
    for this award.

    Audit Results. This allegation was substantiated and is addressed in the Finding
    section of this report.


Sole-Source Procurement – Unusual and Compelling Urgency
    Allegation 2. The complainant questioned how NAVSEA justified a sole-source
    award to DB&A, citing unusual and compelling urgency. The complainant
    further questioned how the Navy justified that the “delay in award of a contract
    would result in serious injury, financial or other, to the Government.”

    Audit Results. This allegation was substantiated and is addressed in the Finding
    section of this report.


Contract Funding
    Allegation 3. The complainant questioned the type of Navy appropriated funding
    used to fund this contract. Specifically, the complainant stated that the
    justification and approval identified that Shipbuilding and Conversion, Navy
    funding would be used to fund this consulting services contract. However, the
    complainant alleged that Operations and Maintenance, Navy funding was used or
    the funding was changed from Shipbuilding and Conversion to Operations and
    Maintenance funding. The complainant further alleged that the original funding
    source, Shipbuilding and Conversion, Navy funding might have been illegally
    appropriated for the SUPSHIP, Newport News contract actions.

    Audit Results. This allegation was unsubstantiated.




                                       18
    Although the July 2003 justification and approval indicated that the Shipbuilding
    and Conversion, Navy funding would be expended for the DB&A contract at
    SUPSHIP, Newport News, we verified that the justification and approval was
    erroneously prepared. The contracting officer explained that the justification and
    approval was prepared prior to the financial review conducted by the NAVSEA
    Comptroller. The comptroller determined that Shipbuilding and Conversion
    funding (applicable to expenditures necessary for the construction, acquisition, or
    conversion of vessels) was inappropriate and that the Operations and
    Maintenance, Navy funding should be expended. The original award document
    identified that Operations and Maintenance, Navy funding would be expended, as
    well as for the modifications that implemented the SUPSHIP, Newport News
    consulting services contract.

    We also reviewed the payment notices that NAVSEA prepared when DB&A
    submitted an invoice for SUPSHIP, Newport News. These payment notices
    identified the appropriation code that cited the actual expended fund cite. We
    sampled five invoices and the corresponding payment notices between August
    and December 2003 and verified that DB&A was paid from the Operations and
    Maintenance, Navy fund. The Shipbuilding and Conversion, Navy fund was
    never used to pay for the DB&A consulting services effort at SUPSHIP, Newport
    News.


Contract Pricing
    Allegation 4. The complainant questioned the weekly contractor rates paid on
    this contract at SUPSHIP, Newport News. The complainant alleged that the
    contract provisions provided for a “generous” contract price of $7,000 per week,
    per contract employee.

    Audit Results. This allegation was unsubstantiated.

    Contract N00024-02-C-6165 was a commercial, firm-fixed-price contract and
    therefore exempt from the requirement to submit cost and pricing data, as
    prescribed in FAR 15.403-1, “Prohibition on Obtaining Cost or Pricing Data.”
    However, the NAVSEA contracting office did conduct an analysis to determine
    price reasonableness. Contracting office personnel prepared a rate comparison
    analysis by selecting a sample of General Services Administration schedules
    relating to consulting services. The weekly rates for the General Services
    Administration listed firms were comparable to the $7,000 weekly rate
    established by DB&A, calculated using the hourly rate for each labor category
    and the percentage of the workload expended by each category. The business
    clearance memorandum for this modification listed four companies and concluded
    that the proposed price from DB&A represented a fair and reasonable price. We
    also reviewed five invoices between August and December 2003, correlating to
    the SUPSHIP, Newport News effort, and noted that the invoices did not break out
    additional expenses. The DB&A project manager at SUPSHIP, Newport News
    explained that hotel and travel expenses are not separately reimbursed by the




                                        19
    Navy, but are the financial responsibility of DB&A. Furthermore, DB&A
    provided pricing documentation to the contracting officer for three previous
    commercial, non-Government contracts in which they also charged $7,000 per
    week.

    Allegation 5. The complainant questioned the contractor travel costs to perform
    the contract at SUPSHIP, Newport News. The complainant alleged that DB&A
    personnel concluded each workweek at 11:00 a.m. on Friday; returned to their
    residences using Government reimbursed air travel; and, retained an open
    reservation status on unused hotel rooms, also reimbursed at Government
    expense.

    Audit Results. This allegation was unsubstantiated.

    DB&A employees do depart SUPSHIP, Newport News, on Friday, at
    approximately mid-day. As this contract is a firm-fixed-price award, the Friday
    mid-day departure issue is not relevant because FAR 16.202-1, “Firm-Fixed-Price
    Contracts-Description,” explains that DB&A must assume maximum risk and full
    responsibility for all costs and resulting profits and losses. Furthermore, the
    contractor holds the incentive to control costs and perform effectively. The
    DB&A project manager stated that DB&A employees frequently expend more
    than 40 hours per week on-site at SUPSHIP, Newport News. Travel and hotel
    expenses incurred by DB&A employees are not separately reimbursed by the
    Navy but are the responsibility of DB&A. In addition, the Joint Travel
    Regulations limitations on travel and hotel expenses are not applicable to DB&A
    as the regulations do not apply to employees of the contractor under contract with
    DoD. Finally, the DB&A project manager provided us a copy of his hotel receipt
    for the week ending January 30, 2004, which reflected that he terminated his
    rental of the room on Friday of that week.


Contractor Performance
    Allegation 6. The complainant stated that performance by DB&A on this
    consulting services contract has negatively impacted productivity and morale.
    The complainant alleged that the SUPSHIP, Newport News supervisors were
    excessively engaged with the contractor, which resulted in impeding Navy repair
    performance. The complainant further alleged that contractor deliverables were
    meaningless, did not accurately measure employee productivity, and were not
    utilized.

    Audit Results. This allegation was unsubstantiated.

    We interviewed 5 department heads and 13 division or branch managers
    representing 4 departments at SUPSHIP, Newport News. The managers
    interviewed were responsible for management of about 49 percent of the total
    SUPSHIP, Newport News workforce. The managers interviewed contended that
    performance of DB&A uniformly ranged from excessively burdensome to
    appalling. Managers estimated that time expended collecting performance data
    on SUPSHIP, Newport News employees initially ranged between 4 and 8 hours


                                        20
daily. Managers stated that the average time expended throughout the workday
documenting employee performance currently consumes between 2 and 3 daily
work hours. The reduced managerial involvement did not reduce the vitriolic
feelings that SUPSHIP, Newport News managers and employees have
maintained. The managers stated that their involvement with DB&A personnel
has severely compromised their normal duties and responsibilities.

Although the majority of SUPSHIP, Newport News management considered the
DB&A contract to be meaningless, NAVSEA and PEO, Carriers (a primary
customer of SUPSHIP, Newport News) appraised the DB&A effort to be
worthwhile. On March 10, 2004, SUPSHIP, Newport News presented a quarterly
briefing that reported performance improvements from the start of the DB&A
consulting services effort in August 2003, to February 2004. Noted SUPSHIP,
Newport News department improvements included:

           Engineering - Delinquent drawings decreased by 49 percent;
           correspondence backlog items decreased by 24 percent; the number of
           past due items dropped from 618 to 245; while the open and closed
           cycle times decreased by 44 percent and 73 percent, respectively. In
           addition, the department improved the integrity of its defect rate data,
           which provided leverage over Northrop Grumman (the prime
           shipbuilding, repair, and conversion contractor at SUPSHIP, Newport
           News) to fix the process.

           Quality Assurance - Records reviewed per person increased by
           56 percent and the average daily records completed increased by
           46 percent. The department changed its quality assurance techniques,
           which will allow them to complete 147 audits in 2004, when they were
           unable to complete 27 audits in 2003. In addition, the department has
           implemented quality metrics that will facilitate a review of all
           attributes of the surveillance process on a quarterly basis.

           Logistics - A type and quantity review of material ordered was
           completed 8 months ahead of schedule. The contract closeout backlog
           dropped to zero, and the tasks completed per hour increased by
           67 percent.
           Contracts - The contract action backlog decreased by 25 percent, while
           average daily output increased by 35 percent. In addition, contract
           actions completed per person increased by 50 percent.

The Deputy Supervisor, SUPSHIP, Newport News, stated that DB&A has
provided them with a solid foundation for continuous improvement. The deputy
further stated that DB&A has provided a methodical, structured approach that will
benefit SUPSHIP, Newport News, and the Navy in the long run.




                                    21
Miscellaneous Allegations
     The complainant also raised individual issues not related to the above allegations,
     and are as follows:

     Allegation 7. The Inspector General, NAVSEA was contacted and made aware
     of the issues cited in this complaint but discouraged the complainant to take
     further action on them.

     Audit Results. The allegation could not be assessed during the audit based on
     the absence of facts and supporting data. However, we referred this allegation to
     the Deputy Inspector General for Inspections for further review and analysis
     because they are the appropriate office to review an allegation of this type.

     The NAVSEA Hotline office had no record of the call addressing the DB&A
     contract, did not recall a voice mail addressing the complaint, and noted that there
     was no possibility of reviewing prior voice messages placed with the Inspector
     General’s office in mid-September 2003. In addition, the complainant alleged
     that the Inspector General, NAVSEA received a copy of the same congressional
     request that initiated this audit. The office did receive a copy of the complaint
     and began an inquiry. When the Inspector General, NAVSEA learned that we
     initiated an audit on the same congressional request, he suspended their inquiry
     on December 11, 2003.

     Allegation 8. Contractor personnel have access to proprietary and automated
     data of Northrop Grumman (the contractor of SUPSHIP, Newport News) and of
     the repair facility employees. The complainant alleged that access to this
     information affords DB&A the opportunity to corrupt the data and manipulate the
     SUPSHIP, Newport News performance metrics.

     Audit Results. This allegation was unsubstantiated.

     We determined that DB&A employees could potentially view proprietary data
     while performing work on the contract at SUPSHIP, Newport News. DB&A
     employees signed a nondisclosure agreement with Northrop Grumman and
     NAVSEA, and the agreements are on file at the respective locations. For
     example, the two-year Northrop Grumman agreement stipulated that Northrop
     Grumman must provide written consent for any DB&A employee to have future
     employment with a direct Northrop Grumman competitor. Furthermore,
     employees with a security clearance also signed a nondisclosure agreement with
     the Government, and those employees requesting access to the SUPSHIP,
     Newport News network signed a network agreement. This limited network
     access entitled DB&A employees to use only those assets for which are required
     to perform their professional duties. The DB&A employees signed these
     agreements to ensure the protection of the proprietary data of Northrop Grumman
     and the repair facility employees. In addition, the SUPSHIP, Newport News
     employees interviewed provided no indication that DB&A employees took the
     opportunity to corrupt or manipulate data or performance metrics.




                                          22
Taxes and Business Licenses
     Allegation 9. The complainant alleged that DB&A “has continued to be defiant
     with regard to remitting taxes and securing a business license.” The complainant
     further alleged that DB&A admitted that it owes taxes to the City of Newport
     News for work conducted 3 years ago but the company has not been billed. Also,
     DB&A has not remitted taxes for current work.

     Audit Results. This allegation was substantiated.

     Contract N00024-02-C-6165 stated that the DB&A “. . . contract price include all
     applicable federal, state and local taxes and duties.” The contract further required
     that, “The Contractor shall comply with all applicable Federal, State and local
     laws, executive orders, rules and regulations applicable to its performance under
     this contract.” Contracting office personnel explained that compliance with
     Federal, State and local laws regarding doing business in Virginia was the
     responsibility of the contractor and not the contracting officer.

     DB&A claimed that it was unaware, not defiant as the allegation indicated, that
     conducting business in the City of Newport News, Virginia, required securing a
     business license and remitting city taxes. DB&A further explained that the City
     of Newport News assessed the company $23,298.78, comprised of $16,215.62 for
     taxes assessed in license year 2000, plus $7,083.16 for penalties and interest. The
     contractor recently paid the license year 2000 back taxes and is conferring with
     the City of Newport News for relief from the penalty and interest charges. In
     addition, DB&A hired CT Corporation, a firm specializing in assisting out-of-
     state companies with state licensing matters, to obtain the necessary Virginia and
     city licenses and registrations in order to comply with state laws. Finally, DB&A
     explained that it is evaluating 2001 through 2004 license years to determine
     applicable taxes with the Commissioner of the Revenue, Newport News.


State Registration
     Allegation 10. The complainant alleged that DB&A had not registered with the
     State Corporation Commission in the Commonwealth of Virginia, a prerequisite
     for a firm to conduct business in Virginia. The complainant further alleged that
     failing to register with the State Corporation Commission, to secure a Certificate
     of Authority, was an intentional plan to avoid payment of taxes to the
     Commonwealth of Virginia.

     Audit Results. This allegation was substantiated.

     Virginia law states that all foreign corporations, companies not incorporated in
     the Commonwealth of Virginia, must obtain a Certificate of Authority before
     conducting business within Virginia. DB&A did not obtain a Certificate of
     Authority with the State Corporation Commission before conducting business in
     Virginia. However, the company stated that it was unaware of the state licensing
     requirements and the state tax liability. We could not determine whether DB&A


                                          23
intentionally did not obtain a certificate to avoid the payment of taxes to Virginia.
However, DB&A is now making every effort to comply with Virginia laws. As
stated above, DB&A retained the services of CT Corporation to assist them in
obtaining proper Virginia licenses and registrations, including the Certificate of
Authority.




                                     24
Appendix D. Chronology of Events for Contract
            N00024-02-C-6165
September 4, 2001    A Joint Memorandum from the Vice Chief of Naval Operations
                     and the Assistant Secretary of the Navy for Research,
                     Development, and Acquisition directing the Navy to find
                     reductions in program costs.

February 2002        A resource allocation display of the FY 2004 budget called for an
                     8 percent civilian personnel reduction that equated to a 20 percent
                     reduction in civilian personnel end strength at NAVSEA and
                     Program Executive Offices.
May 2002             The Chief of Naval Operations directed that NAVSEA “reduce
                     overhead by 10 percent [and] return savings to fleet readiness and
                     procurement accounts.”

May 10, 2002         First justification and approval for other than full-and-open
                     competition, citing unusual and compelling urgency.

May 22, 2002         NAVSEA awarded contract N00024-02-C-6165 to DB&A for
                     efficiency management and productivity improvement consulting
                     services.

June 3, 2002         NAVSEA awarded modification P00001 for additional funding for
                     contract N00024-02-C-6165.

June 28, 2002        First synopsis submitted by NAVSEA to the Federal Business
                     Opportunities Web site expressing their desire to continue with the
                     efficiency management and productivity improvement consulting
                     services contract.
July 2, 2002         NAVSEA awarded modification P00002 for an item revision and
                     additional funding for contract N00024-01-C-6165.

August 5, 2002       NAVSEA awarded modification P00003 for an administrative
                     change for contract N00024-02-C-6165.

August 30, 2002      NAVSEA awarded modification P00004 for item revisions and
                     additional funding for contract N00024-02-C-6165.

September 16, 2002 Second justification and approval, citing only one responsible
                   source.

September 30, 2002 NAVSEA awarded modification P00005 for
                   additional man weeks of effort and full funding for the entire
                   award for contract N00024-02-C-6165.



                                          25
Appendix D. Chronology of Events for Contract
            N00024-02-C-6165 (Cont’d)
January 16, 2003    Second synopsis submitted by NAVSEA to the Federal Business
                    Opportunities Web site expressing their desire to continue with the
                    efficiency management and productivity improvement consulting
                    services contract.

January 17, 2003    Third justification and approval, citing only one responsible
                    source.

January 31, 2003    NAVSEA awarded modification P00006 for additional manweeks
                    of effort for contract N00024-02-C-6165.

July 18, 2003       Third synopsis submitted by NAVSEA to the Federal Business
                    Opportunities Web site expressing their desire to continue with the
                    efficiency management and productivity improvement consulting
                    services contract.

July 31, 2003       Fourth justification and approval, citing only one responsible
                    source.

August 15, 2003     NAVSEA awarded modification P00007 for additional manweeks
                    of effort for contract N00024-02-C-6165.

September 4, 2003   NAVSEA awarded modification P00008 for item revisions and
                    additional funding for contract N00024-02-C-6165.

September 25, 2003 NAVSEA awarded modification P00009 for
                   additional funding for contract N00024-02-C-6165.




                                         26
Appendix E. Navy Comments on the Report
            Finding and Audit Response

Exception to Competition
    Management Comments. The Navy stated that it is a customary practice to
    begin acquisition planning as soon as a requirement has been identified.
    Acquisition planning occurred for contract N00024-02-C-6165. Efforts to
    internally resolve budget reductions failed; thus, the Navy determined that
    contractual support would be required. In May 2002, the Navy based urgency for
    the contract upon “the need to contract to increase budgetary savings by the end
    of the then fiscal year to comply with Section 802 of the 2001 National Defense
    Appropriation Act.” DB&A was selected because of its prior work with an
    affiliated PEO and that no other source could meet all of the requirements within
    the required time frame. The Navy contended it was unable to award a contract
    via competitive means and still meet the imposed budgetary deadlines.

    Before increasing the scope of contract N00024-02-C-6165, the Navy prepared
    justification and approval documents citing only one responsible source. Further,
    the urgency associated with the initial award was no longer the case. DB&A was
    awarded subsequent modifications to the contract because of its “intimate
    knowledge of NAVSEA, its processes and systems . . . .” Considering another
    source would involve a significant duplication of effort with no apparent benefit.

    Audit Response. Despite internal attempts to rectify mandated budget reductions
    (between September 2001 and May 2002), the Navy was aware of the impending
    reductions 9 months before awarding to DB&A the contract citing unusual and
    compelling urgency. The Navy stated that an inadequate period of time remained
    to solicit, evaluate, and award a contract through competitive means after internal
    attempts to enact budget reductions failed. However, FAR 6.301 does not allow
    an urgent justification based upon the lack of advance planning.

    The Navy did not thoroughly explain why DB&A was the only responsible source
    or why other consulting service contractors were not considered for the award. If
    the DB&A award was no longer considered urgent when the Navy awarded
    subsequent modifications, we question why the consulting services in those
    modifications were not competed, especially when contracting officials were
    aware of the need for those services. If the Navy believed that modifications to
    the DB&A award were considered logical follow-on efforts, then it should have
    measured the cost avoidance or demonstrated that competition would result in
    unacceptable delays in fulfilling the agency’s needs. The Navy states in the
    justification and approval documents that “there are no duplication of costs,” but
    the Navy did not explain which costs could have been duplicated or identify the




                                        27
    substantial nature of the costs. Furthermore, although justification and approval
    documents state “. . . that qualifying a new source would significantly put the
    success of this effort in jeopardy,” the Navy did not identify potential problems if
    the effort did not succeed.


Synopsis of Requirements
    Management Comments. The Navy stated that the synopses were worded
    appropriately and in accordance with FAR provisions. Furthermore, it is
    incumbent upon those seeking business to inquire as to additional business
    opportunities. The Navy noted that it did not receive any inquiries on the
    synopses.

    Audit Response. As stated in the report, FAR 5.207 requires that a
    noncompetitive contract action synopsis should include, among other things, the
    intended source, a statement of the reason justifying the lack of competition, and a
    statement that all responsible sources may submit a bid. However, the wording
    contained in the synopses, such as the implied prohibition of future NAVSEA
    business, was restrictive and may have dissuaded consulting service firms from
    inquiring about those synopses. Furthermore, expecting a potential contractor,
    especially a small consulting firm, to question the meaning of a perceived
    restriction in the synopsis is beyond the intended purpose of synopsizing a
    contract requirement.


Market Research
    Management Comments. Although the Navy agreed that market research was
    not conducted for contract N00024-02-C-6165, there was no assurance at the time
    of the initial award that other companies would be able to satisfy all of the
    contract requirements. Market research need not be conducted on contracts with
    urgent requirements and that it is a standard practice to rely on the required
    synopses to notify potential offerors of the requirements. Although similar
    consulting service companies were used to determine that DB&A prices were
    reasonable, this does not indicate that those companies were capable of meeting
    the contract requirements.

    Audit Response. FAR 6.302-2 does not state or imply that market research need
    not be conducted on contract actions designated as urgent. FAR 6.302-2(c)(2),
    “Limitations,” states that agencies must request offers from as many potential
    sources as is practicable under the circumstances. If NAVSEA considers it to be
    a standard practice to rely only on the synopsis to notify potential offerors of a
    pending contract requirement, then NAVSEA is implementing only one of the
    eight possible techniques in the FAR addressing thorough market research.
    Furthermore, a 3-month period elapsed between the initial synopsis and
    modification P00005, allowing NAVSEA sufficient time to conduct thorough
    market research. Instead, NAVSEA awarded another sole-source modification,
    citing only one responsible source. The Navy did not ascertain the capabilities of


                                         28
    the contractors it used to determine price reasonableness. Market research would
    have identified potential competitive sources for the contract requirements.


Modifications
    Management Comments. The Navy stated that the report misinterpreted the
    synopsis language that stated DB&A “cannot be currently performing any other
    NAVSEA contract.” The word “other” referred to other work and not to other
    contracts. Furthermore, the company is “excluded from performing any different
    type of future effort for NAVSEA” and that follow-on efforts would be permitted
    without organizational conflicts of interest arising.

    Audit Response. The three synopses, addressing requirements in modifications
    P00005 through P00009, contain the following sentence: “As such, it is a
    requirement that the contractor be free from all potential conflicts of interest,
    cannot be currently performing any other NAVSEA contracts, and will be
    prevented from being awarded any future NAVSEA business.” During the audit,
    NAVSEA contracting officials did explain that the purpose of that sentence was
    to prevent a potential conflict of interest. However, the sentence could restrict
    competition. We did not draw the distinction between “other” types of work and
    “other” contracts. Thus, we cannot be assured that potential offerors would have
    drawn the distinction that NAVSEA intended.

    The final synopsis, addressing modifications P00007 through P00009, states that
    DB&A “. . . is excluded from performing any different type of future effort for
    NAVSEA.” That exclusion, according to NAVSEA contracting officials, only
    applies to DB&A, not to potential offerors. The phrase “. . . and will be
    prevented from being awarded any future NAVSEA business” is included in all
    three synopses and applies to all offerors. Including that phrase restricts
    competition. As a means of remaining with the same contractor, NAVSEA
    inappropriately used modifications for new work instead of awarding separate
    competitive contracts.




                                        29
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Director, Program Analysis and Evaluation
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Sea Systems Command
Supervisor of Shipbuilding, Conversion and Repair
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        31
Department of the Navy Comments




                    33
34
35
36
37
38
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

David K. Steensma
Terry L. McKinney
Nick Como
Tracy Smelley
Stacie Rimmer
Julie Yerkes
TheresaTameris
